March 26, 2008

MICHAEL J. DALEY
VICE PRESIDENT, PACIFIC AREA OPERATIONS

SUBJECT:     Audit Report – Postal Vehicle Service Transportation Routes – San
             Francisco Processing and Distribution Center
             (Report Number NL-AR-08-003)

This report presents results from our audit of Postal Vehicle Service (PVS)
transportation (Project Number 07XG039NL000). The report is one in a series of
reports responding to a request from the Vice President, Network Operations, and
addressing operational risks to the U.S. Postal Service. Refer to Appendix A for
additional information about this audit.




           A Postal Service PVS cargo van hauling mail on Interstate 280 in San Francisco,
                                         October 17, 2007.
Postal Vehicle Service Transportation Routes –                                 NL-AR-08-003
 San Francisco Processing and Distribution Center


Conclusion

The San Francisco Processing and Distribution Center’s (P&DC) PVS processes and
schedules are not efficient.

Workhour and Cost Reduction

The San Francisco P&DC could improve PVS processes and remove
26,698 unnecessary workhours from existing PVS schedules. Officials could
eliminate the workhours without negatively affecting service because schedules contain:

    •   Unassigned time when drivers are not needed for a specific trip or related
        activity.

    •   Duplicate trips.

    •   Unproductive trips where the loads are not full or could be consolidated.

We recommend the Vice President, Pacific Area Operations:

    1. Verify elimination of the 26,698 hours that management agreed to remove from
       trip schedules.

Scheduling Weaknesses

The San Francisco P&DC could further improve PVS processes and save additional
money if officials corrected driver schedule weaknesses. During the audit, we noted
management inconsistently developed many driver schedules and assigned some
drivers more time than seemed necessary to accomplish specified tasks. In addition,
some schedules contained tasks that seemed unnecessary.

During our audit, we talked to management officials about schedules that seemed to
include excess travel time, excess loading and unloading time, and unnecessary fueling
time. The officials explained that the scheduling weaknesses we identified could be
corrected by analyzing whether tasks were actually needed, and if so, analyzing how
much time the drivers needed to perform them. The officials referred to the process as
a “baseline” or “zero-base” review. We recommended that management conduct the
review and management officials agreed. They explained that they would assemble a
team of staffing experts from Postal Service Headquarters, the Pacific Area, and the
San Francisco District to develop a “zero-base” report and that they would begin the
project no later than April 2008. Refer to Appendix B for detailed analysis of this issue.




                                                    2
Postal Vehicle Service Transportation Routes –                                NL-AR-08-003
 San Francisco Processing and Distribution Center


We recommend the Vice President, Pacific Area Operations:

    2. Coordinate and conduct a zero-base review to determine if all San Francisco
       Processing and Distribution Center driver tasks are necessary, determine how
       much time is necessary for drivers to perform the tasks, and adjust driver
       schedules accordingly.

Management’s Comments

Management agreed with our findings and recommendations. They stated they could
not determine the exact number of unassigned hours until they completed their review
of the San Francisco P&DC PVS operations, which is scheduled from April 14 to
May 23, 2008. Management indicated the review will address the inefficiencies noted in
this report and will assist in rightsizing the employee complement to workload. Upon
completion of the review, management will inform the OIG of their analysis, results, and
recommendations.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective actions should resolve the issues identified in the report. The OIG
considers both recommendations significant, and therefore requires OIG concurrence
before closure. Consequently, the OIG requests written confirmation when corrective
actions are completed. These recommendations should not be closed in the follow-up
tracking system until the OIG provides written confirmation that the recommendations
can be closed.

We will report $10.1 million in funds put to better use in our Semiannual Report to
Congress.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments




                                                    3
Postal Vehicle Service Transportation Routes –          NL-AR-08-003
 San Francisco Processing and Distribution Center




cc: Patrick R. Donahoe
    William P. Galligan
    Susan Brownell
    Anthony M. Pajunas
    Dwight Young
    Winifred G. Groux
    Lynn Forness
    Katherine S. Banks




                                                    4
Postal Vehicle Service Transportation Routes –                                              NL-AR-08-003
 San Francisco Processing and Distribution Center




                        APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

U.S. Postal Service transportation includes both nationwide “network” transportation
between cities and major facilities and “delivery” transportation between local
post offices and neighborhood delivery or pick-up points. Network transportation using
Postal Service vehicles and employees is called PVS.




                  PVS tractor-trailers passing through the security gate and entering the
                               San Francisco P&DC yard, October 17, 2007.


PVS is capital and personnel-intensive. PVS capital assets include 2,289 cargo vans,
2,338 tractors, and 4,456 trailers. Employees service and repair these vehicles at
322 Postal Service vehicle maintenance facilities (VMFs) or annexes and local
commercial garages nationwide. PVS currently involves about 10,000 employees
including 8,482 uniformed drivers, 621 administrative support personnel, and 963
managers. The American Postal Workers Union represents PVS drivers and support
personnel.

Management typically assigns PVS vehicles and personnel to Postal Service network
facilities such as bulk mail centers or P&DCs. These facilities are located in or near



                                                    5
Postal Vehicle Service Transportation Routes –                                 NL-AR-08-003
 San Francisco Processing and Distribution Center


metropolitan areas. PVS operations are normally conducted in urban and suburban
areas within 50 miles of a base facility. Operations can include:

    •   Transportation to and from major facilities or local post offices.

    •   Transportation to and from major commercial business mailers.

    •   “Yard operations” defined as the movement of trailers and equipment in or
        around a facility yard.

PVS drivers log about 150 million miles every year. There are about 290 processing
facilities in the Postal Service network and only 162 conduct PVS operations. Because
PVS operations are local, they are managed at the facility level under guidance and
policy provided by district, area, and headquarters transportation officials.

The Vice President, Network Operations, requested that we audit PVS operations
nationwide. Because individual facilities control PVS operations, we localized our audit
approach. This report focuses on PVS operations at the San Francisco P&DC in the
Postal Service Pacific Area.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to evaluate the efficiency of PVS operations and
identify opportunities to save money.

Using Postal Service computer-generated data and other records, we analyzed all
406 San Francisco P&DC driver schedules, identified 365,296 workhours associated
with those schedules, and evaluated individual trips and trip load volume. We
conducted the analysis to determine if management could reduce workhours and labor
costs because there were:

    •   Unassigned times when drivers are not needed for a specific trip or related
        activity.

    •   Duplicate trips.

    •   Unproductive trips where the loads are not full or could be consolidated.

We did not audit or comprehensively validate the data; however, we noted several data
and other weaknesses that limited our work. For example, some computer records had
missing data and inaccurate load volumes. However, even though these limitations
constrained our work, we were able to compensate by applying alternate audit
procedures, including observation, physical inspection, and discussion with appropriate




                                                    6
Postal Vehicle Service Transportation Routes –                                           NL-AR-08-003
 San Francisco Processing and Distribution Center


officials. We also applied conservative principles to our workhour and cost reduction
estimates.

During our work, we visited the San Francisco P&DC, other regional facilities, and local
post offices. We reviewed relevant Postal Service policies and procedures, interviewed
managers and employees, and observed and photographed operations. We evaluated
the type of mail carried, considered on-time service standards, and visited major
commercial business mailers. We examined the cost of PVS operations, including the
cost of PVS personnel, fuel, and damage claims. We identified unscheduled time and
trip duplications and analyzed potential trip consolidations. We also discussed our
observations and conclusions with senior management officials throughout our audit,
considered their perspective, and included their comments where appropriate.

We conducted work associated with this performance audit report from October 2007
through March 2008 in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform audit work to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.

PRIOR AUDIT COVERAGE

At the request of the Vice President, Network Operations, the OIG has worked with the
Postal Service to reduce PVS costs. As indicated by the chart below, since March
2007, we have issued three audit reports that identified labor and other potential
savings exceeding $16 million. Management agreed with all of our findings and
recommendations.

                                                                                          Monetary
                     Report                           Report         Final Report          Impact
                      Title                           Number             Date           (in millions)

Postal Vehicle Service Transportation Routes –
Memphis Processing and Distribution Center          NL-AR-07-003     March 30, 2007         $7.3

Postal Vehicle Service Transportation – Los
Angeles Bulk Mail Center                            NL-AR-07-006   September 21, 2007        4.9

Postal Vehicle Service Transportation Routes –
Milwaukee Processing and Distribution Center        NL-AR-07-007   September 27, 2007        4.0

Total                                                                                      $16.2




                                                      7
Postal Vehicle Service Transportation Routes –                                 NL-AR-08-003
 San Francisco Processing and Distribution Center


                            APPENDIX B: DETAILED ANALYSIS

Scheduling Weaknesses

The San Francisco P&DC could further improve PVS processes and save additional
money if officials corrected driver scheduling weaknesses. For example, our
examination of PVS schedules identified scheduling weaknesses such as:

    •   Inconsistent and Excessive Travel Times – Scheduled travel times to and from
        the same locations varied significantly. P&DC transportation managers stated
        that traffic congestion during rush hour or other high-volume times explained
        some discrepancies, but acknowledged that, in other cases, it did not. They also
        acknowledged that, in many cases, scheduled travel times were excessive.

    •   Inconsistent and Excessive Loading or Unloading Times – Scheduled loading or
        unloading times also varied significantly. Managers explained that trip load
        volumes accounted for some discrepancies because trips were not always full,
        but again acknowledged that, in other cases, scheduled loading and unloading
        times were excessive.

    •   Unnecessary Fueling Time – Driver schedules included vehicle fueling time even
        when fueling was not needed. The San Francisco P&DC is collocated with the
        San Francisco VMF. The VMF has its own fuel tanks and PVS schedules
        allocate time for drivers to fuel vehicles. Our observations, discussions with VMF
        managers, and analysis of driver schedules and PVS vehicle fuel capacity and
        VMF fueling records for the period September 1 through 30, 2007, indicated that
        PVS drivers unnecessarily refueled vehicles that were already over three-
        quarters full more than 45 percent of the time. The analysis also indicated that
        drivers refueled vehicles that were over one-half full more than 93 percent of the
        time. Our policy document search and discussion with PVS and VMF managers
        did not identify any requirement for PVS drivers to “top-off” vehicles that were
        already three-quarters, two-thirds, or one-half full.

During our talks with management officials, we discussed our observations about
excess travel time, excess loading and unloading time, and unnecessary fueling time.
The officials explained that management could correct the scheduling weaknesses we
identified by analyzing whether the tasks were actually needed, and if so, analyzing how
much time the drivers needed to perform them. The officials referred to the process as
a “baseline” or “zero-base” review. We explained such a baseline review was beyond
the time and resources we had available, and we recommended that management
conduct the analysis with their own internal resources. The officials agreed to do so,
and explained that they would assemble a team of staffing experts from Postal Service
Headquarters, the Pacific Area, and the San Francisco District to develop a “zero-base
report,” and that they would begin the project no later than April 2008.




                                                    8
Postal Vehicle Service Transportation Routes –              NL-AR-08-003
 San Francisco Processing and Distribution Center


                        APPENDIX C. MANAGEMENT’S COMMENTS




                                                    9
